<html>
<title> - H.R. 1296, THE DISTRICT OF COLUMBIA DISTRICT ATTORNEY ESTABLISHMENT ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
H.R. 1296, THE DISTRICT OF COLUMBIA DISTRICT ATTORNEY ESTABLISHMENT ACT 
                                OF 2007

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 1296

TO AMEND THE DISTRICT OF COLUMBIA HOME RULE ACT TO ESTABLISH THE OFFICE 
  OF THE DISTRICT ATTORNEY FOR THE DISTRICT OF COLUMBIA, HEADED BY A 
   LOCALLY ELECTED AND INDEPENDENT DISTRICT ATTORNEY, AND FOR OTHER 
                                PURPOSES

                               __________

                             APRIL 24, 2008

                               __________

                           Serial No. 110-116

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
46-886 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2008...................................     1
Text of H.R. 1296................................................     8
Statement of:
    Boyd, Eugene, Analyst in Federalism and Economic Development 
      Policy, Government and Finance Division, Congressional 
      Research Service; and Robert J. Spagnoletti, partner, 
      Schertler and Onorato, LLP.................................    20
        Boyd, Eugene.............................................    20
        Spagnoletti, Robert J....................................    27
Letters, statements, etc., submitted for the record by:
    Boyd, Eugene, Analyst in Federalism and Economic Development 
      Policy, Government and Finance Division, Congressional 
      Research Service, prepared statement of....................    22
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     3
    Spagnoletti, Robert J., partner, Schertler and Onorato, LLP, 
      prepared statement of......................................    29


H.R. 1296, THE DISTRICT OF COLUMBIA DISTRICT ATTORNEY ESTABLISHMENT ACT 
                                OF 2007

                              ----------                              


                        THURSDAY, APRIL 24, 2008

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Norton, 
Kucinich, and Marchant.
    Staff present: William Miles, professional staff member; 
Marcus Williams, clerk; Howie Denis, minority senior 
professional staff member; and Alex Cooper, minority 
professional staff member.
    Mr. Davis of Illinois. The subcommittee will now come to 
order.
    Welcome, Ranking Member Marchant, members of the 
subcommittee, hearing witnesses and all those in attendance. 
Welcome to the Federal Workforce, Postal Service, and the 
District of Columbia hearing entitled, ``H.R. 1296, the 
District of Columbia District Attorney Establishment Act of 
2007.''
    The Chair, ranking member and subcommittee members will 
each have 5 minutes to make opening statements, and all Members 
will have 3 days to submit statements for the record. Hearing 
no objection, so ordered.
    I will begin with an opening statement. Good morning, 
Ranking Member Marchant, subcommittee members and all of you 
present in the audience today. I would like to welcome you to 
the subcommittee's hearing on H.R. 1296, the District of 
Columbia District Attorney Establishment Act of 2007. The 
legislation being discussed this morning proposes to create an 
elected and independent Office of District Attorney in D.C., 
thereby placing the city on equal footing with every other 
locality and jurisdiction in this Nation.
    Currently, the District of Columbia is the only place in 
our country that has a Presidentially appointed Federal 
attorney who is responsible for prosecuting not only Federal 
crimes but local criminal violations as well. This means that 
the U.S. Attorney for the District of Columbia must 
simultaneously perform the necessary responsibilities for both 
Federal and D.C. adult felony violations, a task that is 
unmatched in any other courtroom around the Nation.
    Given the statutory requirements placed on the U.S. 
Attorney's Office for the District of Columbia, the District's 
Office of the Attorney General, who acts as the city's official 
legal authority, is therefore relegated to probing civil 
litigation that is directed by and against the District 
government. To this end, the District's Attorney General only 
prosecutes ordinances, regulations or penal statutes, where the 
maximum punishment is fine only or imprisonment not exceeding 1 
year.
    In response to the peculiar arrangement of the District's 
legal system, on November 5, 2002, citizens of the District of 
Columbia approved by an overwhelming 82 percent a valid 
referendum calling for the establishment of a locally elected 
District Attorney. The city council of the District of Columbia 
then followed suit with the approval of Bill 14-600, the 
establishment of an Office of the District Attorney for the 
District of Columbia Charter Amendment Act of 2002, which 
sought to amend the D.C. Home Rule Act to permit the citizens 
of the District to elect a local DA, whose office would assume 
the obligation tied to prosecuting criminal and civil 
proceedings.
    The legislation was never fully enacted due to a lack of 
congressional action, which brings us to today and the 
consideration of H.R. 1296, the District of Columbia District 
Attorney Establishment Act of 2007. Representative Norton, who 
I commend for her extensive work and diligence on this issue, 
introduced the measure at hand on March 1, 2007. H.R. 1296 
seeks to restore what the people of the District of Columbia 
deserve: a locally based, publicly accountable district 
attorney. This measure is the final step toward removing the 
muzzle that Congress has put on D.C. residents and in turn, 
gives them the right that is afforded to every other American 
citizen: the right to elect a local district attorney who 
answers and is accountable to the community.
    I thank you very much and look forward to hearing today's 
witnesses, and would now yield to Ranking Member Marchant.
    [The prepared statement of Hon. Danny K. Davis and the text 
of H.R. 1296 follow:]

[GRAPHIC] [TIFF OMITTED] T6886.001

[GRAPHIC] [TIFF OMITTED] T6886.002

[GRAPHIC] [TIFF OMITTED] T6886.003

[GRAPHIC] [TIFF OMITTED] T6886.004

[GRAPHIC] [TIFF OMITTED] T6886.005

[GRAPHIC] [TIFF OMITTED] T6886.006

[GRAPHIC] [TIFF OMITTED] T6886.007

[GRAPHIC] [TIFF OMITTED] T6886.008

[GRAPHIC] [TIFF OMITTED] T6886.009

[GRAPHIC] [TIFF OMITTED] T6886.010

[GRAPHIC] [TIFF OMITTED] T6886.011

[GRAPHIC] [TIFF OMITTED] T6886.012

[GRAPHIC] [TIFF OMITTED] T6886.013

    Mr. Marchant. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I understand that H.R. 1296, introduced by Representative 
Norton, would amend the D.C. Home Rule Act to create a locally 
elected D.C. Attorney General. At the present time, in the 
District of Columbia Home Rule Act, Congress leaves criminal 
and civil issues that might otherwise be handled by a locally 
elected District Attorney in the hands of a Presidentially 
appointed U.S. Attorney. The U.S. Attorney for the District of 
Columbia prosecutes both Federal and D.C. Code violations.
    Coordination of criminal justice activities in the District 
of Columbia is unique. There are over 30 law enforcement 
agencies with a presence here. Some are city agencies, such as 
the Metropolitan Police Department. Some are Federal, such as 
the Office of U.S. Attorney for the District of Columbia. 
Historically, the U.S. Attorney's Office has facilitated 
cooperation for police in areas adjacent to Federal facilities.
    Several years ago, the Government Accountability Office 
noted that we must continually seek to improve communication 
and coordination among these agencies. So any change to the 
current governance should be carefully evaluated by Congress as 
to whether it truly enhances communication and coordination 
among the different interest groups.
    I appreciate the chance to discuss the issues today and 
look forward to the hearing. Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Delegate Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, for this 
hearing and the first hearing held on this bill. I have over 
several sessions introduced this important bill, as part of my 
Free and Equal D.C. series. I appreciate the fact that you have 
afforded us hearings on that series. Indeed, we are making 
great headway on that process as I speak. The whole series is 
for the purpose of essentially perfecting the Home Rule process 
which Congress began in 1974, but leaves many vital functions 
here that I do not intend to have remain here. I believe that 
Congress is inclined to move forward to transfer out of its 
jurisdiction business that is not its business, allowing 
Congress and the Federal Government to focus where the people 
of the United States expect them to focus.
    I think most Americans would be stunned to find out that 
the local DA for the District of Columbia is the U.S. Attorney 
for the District of Columbia. I think this hearing will be 
important in trying to unfold and unravel some of the issues 
attending such a unique system. A justice system in any 
jurisdiction is always of overriding importance. As it turns 
out, it is part of the jurisdiction of this committee to assure 
that the justice system meets the highest standards, because 
most of it is in the hands of the Federal Government.
    Mr. Chairman, I am appreciate, very appreciative for your 
hearings on the Bureau of Prisons, because your hearings, 
simply by doing oversight, you have already had a profound 
effect on that part of our justice system, our prisons and the 
Bureau of Prisons. The President just last week signed an 
important bill that relates significantly to our justice 
system, increasing the number of superior court judges by 3 to 
61. There was an unintended result from a bill that assisted 
our court system in very important ways when Congress created 
the family court division, with a fixed number of judges 
dedicated exclusively to children and families as a part of a 
bill that former Representative Tom DeLay and I wrote after we 
found some issues affecting our children and the family court, 
all of whose judges handled these cases.
    This bill which the President has just signed and Mr. 
Chairman, which started with processing through this committee, 
preserves the number of judges at 58 who handle criminal and 
civil court matters in the District of Columbia, do not intend 
the improvements in the family court. We have seen really 
immense improvements for families and children by having judges 
dedicated to family issues. We certainly didn't mean, and I can 
tell you for sure that Representative Delay did not mean to 
shortchange other important criminal and civil processing 
matters. The point was to focus on families, not to make other 
important criminal and civil matters pay for the improvements. 
Interestingly, the money was always in the budget for the full 
complement of judges, but it took this committee's 
authorization to make that active.
    The importance of this bill is perhaps best stated by the 
referendum that the people of the District of Columbia 
themselves held with 82 percent voting for their own district 
attorney elected by themselves. I think that referendum and the 
margin makes the best statement about the importance that the 
residents of the District of Columbia, and I must say, 
residents everywhere, attach to public safety and to direct 
control of the officer entrusted particularly with criminal 
prosecutions.
    The D.C. Council, who responded immediately and enacted or 
passed their own bill, my bill is essentially based on the 
referendum and on the D.C. Council bill. We want to correct 
this, to be kind, anomaly in the Federal system. I want to note 
before I go further that the U.S. Attorney for the District of 
Columbia is not here, and I want to know why. Because it goes 
to the question of accountability. It is not that he would not 
have come to testify, we have had the U.S. Attorney before this 
committee regularly, because of our jurisdiction, our sole 
jurisdiction over the U.S. Attorney.
    But Mr. Chairman, the U.S. Attorney for the District of 
Columbia cannot come because he is an acting U.S. Attorney. And 
he has been in office a couple of years, but he is an acting 
U.S. Attorney, because regrettably, I had to oppose his 
confirmation. He is left in office and I do not oppose his 
being left in office, but I did not believe that he should have 
the benefit of confirmation for the U.S. Senate and indicated 
that to Mr. Leahy, who offers me that courtesy before he goes 
forward.
    The reason really goes to a matter, and I regard it as 
serious. The U.S. Attorney for the District of Columbia is 
accountable to people in the Justice Department. This U.S. 
Attorney appears to me to be a competent man. He lives in the 
District. He is essentially a patronage appointment. He worked 
for a former Attorney General. But he and I have worked 
together, he comes to our neighborhoods.
    But we discovered that because of pressure from top 
officials in the Justice Department of 2 years ago, he hired an 
assistant U.S. Attorney who had been fired by the Judiciary 
Committee under the then-Chairman Sensenbrenner. Sensenbrenner 
of course is still an important member of the minority here, 
but was chairman of the Judiciary Committee at the time, was 
fired for using the chairman's name on a letter asking judges 
to reverse their decisions. There are a number of ethical, not 
to mention separation of powers violations involved there.
    Apparently this lawyer sought to be re-hired by the U.S. 
Attorney for the northern District of Virginia. They simply 
refused, based on these violations. But the U.S. Attorney here 
was put in a position where essentially, I suppose, he would 
have had to either resign or do what his superiors, who are not 
the residents of the District of Columbia or any Federal 
official, said, and he was put in quite an untenable position, 
he then did something that I thought was good. He placed this 
person in the appellate division because to place him in the 
trial division would be to place him in the place where he 
sought to have effect in his letter to the judges. These were 
judges of the Seventh Circuit.
    So in order to try to reach an accommodation, I asked that 
person remain in the appellate division and not be put in the 
trial division, the seat of his concern that led to his 
violation. And when this matter went all the way up the ladder 
to the Justice Department, their answer was, well, we reserve 
the right to place this lawyer anywhere we please.
    Therefore, this lawyer sits. He could not and I dare say 
would not have been hired by any other U.S. Attorney's Office. 
It goes directly to the matter of accountability. If a DA here 
were so pressured and it became public, by the way, this has 
been public, has been covered in the Washington Post, then of 
course the people could decide on the fitness of a district 
attorney who hired a person under pressure.
    The fact is, Mr. Chairman, that no one is accountable for 
criminal prosecutions in the District of Columbia. Those 
prosecutions are at the discretion of the U.S. Attorney for the 
District of Columbia. No, he goes about his daily business, we 
are sure in a competent way. But when you consider the 
importance of criminal prosecutions, particularly to big cities 
all of which have high rime rates, you can perhaps understand 
the frustration of the people of the District of Columbia in 
having nothing to say about the District Attorney.
    Mr. Chairman, the U.S. Attorney has death penalty 
jurisdiction. The District of Columbia is a strong anti-death 
penalty jurisdiction. Jurisdictions are used to living with, 
the anti-death penalty jurisdictions are used to living with 
the U.S. Attorneys who occasionally, because they have the 
right under Federal law, bring death penalty prosecutions. 
There have been occasions which, with some criticism, we have 
been able, I think, to correct whether the U.S. Attorney 
actually made decisions about whether to prosecute local crimes 
in Federal or district court, or Federal court, based on his 
desire to use sentencing, the sentencing guidelines or other 
matters. We have seen the U.S. Attorney in recent years insist 
upon trying to get the death penalty here in Superior Court. 
That is interesting, because we have had Republican and 
Democratic U.S. Attorneys, and generally, you earn what you can 
get here, decide how to spend the people's money.
    But we had a whole series of attempts to use the death 
penalty which were turned back almost inevitably by juries and 
also by court decisions, and yet, they came again. I offer 
these examples to you because I think a district attorney would 
have to consider this matter. Obviously, if he were prosecuting 
crimes here, he could not prosecute under the death penalty, 
not because we don't have the death penalty in local law.
    But the point I am making is that the juries come from the 
District of Columbia, that the pattern in the District of 
Columbia is so clear, that to continue to bring such 
prosecutions, leaving families waiting for resolution of these 
matters and spending what turn out to be Federal taxpayers' 
money suggests a lack of accountability, lack of understanding 
of the jurisdiction in which recent U.S. Attorneys have had to 
operate.
    I do not believe the death penalty matters have arisen 
under the present U.S. Attorney, so I am not speaking of the 
present U.S. Attorney, but I am speaking of the last few U.S. 
Attorneys.
    Mr. Chairman, there is no issue of greater importance to 
the citizens of most jurisdictions than having a say in the 
prosecution of local crimes. That is why were are very grateful 
for your decision to allow a hearing on this bill. We are very 
pleased to have both witnesses. I want to note that Mr. 
Spagnoletti is a particularly valuable witness, because he has 
been both a U.S. Attorney, an assistant U.S. Attorney in charge 
of, or chief of one of the divisions of the U.S. Attorney's 
Office here, and he has been Attorney General for the District 
of Columbia. I want to welcome Mr. Boyd and Mr. Spagnoletti.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    We are going to go to our witnesses, and I am going to 
introduce the witnesses and then swear them in.
    Mr. Eugene Boyd serves as a research analyst for the 
Congressional Research Service. He is an expert in the field of 
federalism and economic development policy, government and 
finance, and has performed numerous studies and projects 
related to the intersection between Federal Government and the 
District of Columbia. Welcome, Mr. Boyd.
    Mr. Robert Spagnoletti is a senior partner at the law firm 
of Schertler and Onorato, LLP. Prior to joining the firm, Mr. 
Spagnoletti served as the first Attorney General for the 
District of Columbia. As Attorney General, Mr. Spagnoletti 
represented the District of Columbia in all of its diverse 
legal matters. Welcome, Mr. Spagnoletti.
    It is the tradition of this committee to swear in 
witnesses. If you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will reflect that the 
witnesses answered in the affirmative.
    Gentlemen, we thank you very much, and Mr. Boyd, we will 
begin with you. As you know, it is customary for 5 minutes to 
summarize. The lights will go on green 5 minutes, yellow 1 
minute, red time to stop. We will have questions at the end.
    Thank you very much.

 STATEMENTS OF EUGENE BOYD, ANALYST IN FEDERALISM AND ECONOMIC 
     DEVELOPMENT POLICY, GOVERNMENT AND FINANCE DIVISION, 
  CONGRESSIONAL RESEARCH SERVICE; AND ROBERT J. SPAGNOLETTI, 
              PARTNER, SCHERTLER AND ONORATO, LLP

                    STATEMENT OF EUGENE BOYD

    Mr. Boyd. Thank you, Mr. Chairman, for the invitation to 
testify before the subcommittee.
    I am here today to provide a summary of the legislative 
history of the District of Columbia District Attorney Act, to 
briefly outline the positions of proponents and opponents of 
the legislation, and to describe how the proposed legislation, 
H.R. 1296, would realign the prosecution of local criminal and 
civil cases in the District of Columbia.
    H.R. 1296 would amend the District's Home Rule charter by 
creating the elected office of District Attorney and 
transferring to the DA prosecutorial authority for all local 
criminal laws, as well as the authority over the enforcement of 
civil laws of the District and civil actions against the 
District government. The legislative history of the District 
Attorney Act dates back to June 2002, when the City Council 
approved a referendum for inclusion in the November 5, 2002 
ballot. Eighty-two percent of the votes cast approved of asking 
Congress to amend the Home Rule Act for the purpose of 
establishing an independently elected DA
    In June 2003, Representative Norton introduced H.R. 2334, 
proposing a change in the city charter for the purpose of 
establishing an elected office of district attorney. No 
congressional action was taken on the bill. In succeeding 
Congresses, Representative Norton re-introduced the legislation 
as H.R. 5800 in the 109th Congress, and H.R. 1296 in the 110th.
    In May 2004, then-Mayor Anthony Williams redesignated the 
Office of the Corporation Counsel for the District of Columbia 
as the Office of the Attorney General. Subsequently, the City 
Council approved a measure in February 2005 that amended the 
D.C. Code to reflect the change. Currently, the District's 
Attorney General has authority to prosecute violations of D.C. 
law where the maximum punishment is a fine only or imprisonment 
not exceeding 1 year; conduct all civil lawsuits filed against 
the District; and furnish legal opinions in writing to the 
Mayor. Currently, other major criminal prosecutions are 
conducted by the U.S. Attorney's Office for the District of 
Columbia.
    Under H.R. 1296, however, the newly created Office of the 
District Attorney would prosecute all of the criminal laws of 
the District. Supporters of the locally elected prosecutor 
maintain that the legislation is consistent with the goal of 
expanding home rule and self-governance, would create an 
independent prosecutor directly answerable to the voters, is 
consistent with the practice of most local governments, and 
could lead to improvements in law enforcement.
    In addition, supporters point to the fact that local 
prosecutors are overwhelmingly elected to office. A 2002 report 
by the International City-County Managers Association found 
that 93 percent of 876 counties reported that the local county 
prosecutor was an elected position.
    Opponents of the measure to establish the elected position 
of District Attorney contend that creating such an office could 
result in significant costs to the District as prosecutions 
currently handled by the U.S. Attorney may shift to the DA's 
office. They note that a 2002 report by the CFO estimated the 
cost of implementing the proposed legislation would be $57 
million. The estimate assumed that portions of the caseload of 
the U.S. Attorney's Office would be wholly transitioned to 
local authority.
    H.R. 1296 leaves several unanswered questions open for 
discussion. Most of them would be left for local officials to 
resolve, but Federal involvement or Federal assistance may be 
needed under certain conditions. For instance, the following 
issues may require Federal consideration:
    Staffing of the new office. How would the new Office of 
District Attorney be staffed? Would some of the attorneys now 
in the Attorney General's office be transferred? What will be 
the future responsibilities of the Federal attorneys who are 
handling district cases?
    The role of the Attorney General. The bill does not call 
for the abolition of the Office of the District Attorney 
General, although it would transfer some, but not all of the 
duties and responsibilities of that office to the District 
Attorney. It may leave many still within its authority.
    Would the Attorney General's office continue to provide 
legal opinions and support to the Mayor and executive branch 
agencies? And finally, funding. Currently, Congress provides an 
annual appropriation for the operation of the local court 
system and criminal justice-related activities. Although the 
bill does not assume Federal financial support for the Office, 
some observers contend that such support will be consistent 
with the Federal Government supporting other elements of the 
criminal justice system.
    Conversely, it may be argued that the U.S. Attorney's 
involvement in the prosecution of local crimes represents a 
savings to District residents, much like Federal support for 
court operations and defender services.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions.
    [The prepared statement of Mr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T6886.014
    
    [GRAPHIC] [TIFF OMITTED] T6886.015
    
    [GRAPHIC] [TIFF OMITTED] T6886.016
    
    [GRAPHIC] [TIFF OMITTED] T6886.017
    
    [GRAPHIC] [TIFF OMITTED] T6886.018
    
    Mr. Davis of Illinois. Thank you very much. We will proceed 
to Mr. Spagnoletti.

               STATEMENT OF ROBERT J. SPAGNOLETTI

    Mr. Spagnoletti. Thank you, Mr. Chairman, members of the 
subcommittee. It is a pleasure to be here today to discuss H.R. 
1296.
    As you noted before, I was an Assistant U.S. Attorney for 
the District of Columbia from the year 1990 until 2003, and 
served as the Chief of the Sex Offense and Domestic Violence 
section in that office. I then had the pleasure of serving as 
the Attorney General for the District of Columbia from 2003 
through 2006 under Mayor Anthony Williams, and began my tenure 
when that office was known as the Office of Corporation 
Counsel.
    The Office of the Attorney General for the District of 
Columbia is unique. Appointed by the Mayor of the District, the 
AG has the statutory obligation to conduct the District's ``law 
business.'' Thus, in addition to handling all the District's 
civil litigation, the Office of the Attorney General is 
responsible for virtually every aspect of the city's law 
practice, including real estate tax, bankruptcy, child 
protection, child support, domestic violence, anti-trust 
consumer protection and all the city's appellate work. The 
Office also shares criminal prosecution authority with the 
Office of the U.S. Attorney.
    The District's Attorney General is unique in other ways. It 
is one of the few State-level chief legal officers who is 
appointed by the Chief Executive. Most Attorneys General in 
States are elected. The District's Attorney General does not 
serve for an established term. The District's Attorney General 
could be removed by the Mayor at will and without cause, and 
there are no minimum qualifications for being the appointed 
Attorney General, including no requirement that the Attorney 
General be licensed to practice law in the District of 
Columbia.
    H.R. 1296 would significantly change the way that the 
District's chief legal officer is selected and the scope of his 
or her responsibilities by transferring those powers from the 
U.S. Attorney's Office to prosecute local offenses to the new 
District Attorney. Having served in both offices, I am pleased 
to offer my thoughts on the bill.
    First, I fully support the concept of an elected District 
Attorney for the District of Columbia, a position shared by 80 
percent of my fellow District residents, who voted in favor of 
an elected District Attorney in the referendum. Indeed, there 
is no logical reason why District residents should not be able 
to elect their chief legal officer in the same manner as almost 
every other State. Forty-three States conduct State-wide 
elections for their State Attorneys General.
    The Attorney General for the District of Columbia is 
appointed by the Mayor and serves entirely at his pleasure, 
subject to removal for any or no reason. This creates a 
complicated dynamic between the Mayor and the Attorney General 
where every decision made by the chief legal officer may be 
influenced by the Mayor under the explicit or implied threat of 
being removed from that position.
    A District Attorney independently elected by the citizens 
of the District would enjoy greater independence from the 
Mayor, would be free to zealously represent the interests of 
the District of Columbia, and would be held accountable 
directly to the public. H.R. 1296 would also unify local 
criminal prosecutions. Criminal prosecution authority for local 
crimes is currently divided between the Office of the U.S. 
Attorney and the Office of the Attorney General. The division 
is based on historic and technical grounds and not a logical 
division of criminal offenses.
    The AG's office prosecutes traffic code violations, local 
tax crimes and a number of quality of life misdemeanor offenses 
where the penalty is jail or a fine but not both, where the 
penalty is a year or less. The AG also prosecutes all juvenile 
delinquency cases. Whereas, the U.S. Attorney's Office 
prosecutes all those offenses for which it had responsibility 
at the time Home Rule was enacted, which are most of the felony 
charges and serious misdemeanors where the penalty is jail and/
or a fine.
    This unusual division of charges and responsibilities leads 
to unusual results. First, one offense can lead to charges by 
both offices in the same courthouse. Second, the division 
dictates unusual results in case management. It is not unusual, 
for example, for the Attorney General of the District of 
Columbia to seek immunity from prosecution for a witness from 
the U.S. Attorneys' Office from the District of Columbia for 
local offenses, when the District has need for that witness's 
testimony. These complications would not exist under a unified 
chief prosecutor.
    I would recommend, however, that the position created by 
H.R. 1296 be called Attorney General for the District of 
Columbia, rather than the District Attorney. The term District 
Attorney is generally used for a jurisdiction's chief 
prosector. Here, as described in the bill, the new office would 
comprise all of the existing civil, family, transactional and 
criminal functions of the current Attorney General and add the 
local prosecution authority of the U.S. Attorney. The combined 
civil and criminal authority is more akin to States' Attorneys 
General such as Rhode Island, Delaware and Alaska, which have 
the combined powers, than a pure District Attorney, which 
generally is criminal prosecution.
    The minimum qualifications in H.R. 1296 are moderate and 
reasonable, given that there are no qualifications at the 
moment. I would urge the subcommittee, Members and staff to 
take a look at my testimony for some of the logistical 
difficulties in implementing this bill. There is a huge 
financial implication for this for the District by subsuming 
the responsibilities of the U.S. Attorney's Office as well as 
logistical issues dealing with the inter-relationships among 
those parts of the local criminal justice system that are 
funded by the Federal Government.
    I see my time has run, and I am happy to answer any 
questions.
    [The prepared statement of Mr. Spagnoletti follows:]

    [GRAPHIC] [TIFF OMITTED] T6886.019
    
    [GRAPHIC] [TIFF OMITTED] T6886.020
    
    [GRAPHIC] [TIFF OMITTED] T6886.021
    
    [GRAPHIC] [TIFF OMITTED] T6886.022
    
    [GRAPHIC] [TIFF OMITTED] T6886.023
    
    [GRAPHIC] [TIFF OMITTED] T6886.024
    
    [GRAPHIC] [TIFF OMITTED] T6886.025
    
    [GRAPHIC] [TIFF OMITTED] T6886.026
    
    [GRAPHIC] [TIFF OMITTED] T6886.027
    
    [GRAPHIC] [TIFF OMITTED] T6886.028
    
    [GRAPHIC] [TIFF OMITTED] T6886.029
    
    [GRAPHIC] [TIFF OMITTED] T6886.030
    
    Mr. Davis of Illinois. Thank you very much.
    I want to thank both of you gentlemen for being here and 
for your testimony.
    Mr. Boyd, I will begin with you. In your report on H.R. 
1296, you make mention of several outstanding issues with 
regard to the bill's proposal for an elected District Attorney. 
In your opinion, if enacted, what would be the most significant 
operational challenge posed by this legislation?
    Mr. Boyd. Mr. Chairman, I think the transition, whether or 
not, how the U.S. Attorney's Office will cooperate, coordinate 
with the newly created Office of the District Attorney.
    Mr. Davis of Illinois. Following approval of the 
Revitalization Act, why do you think the prosecution of local 
criminal cases was assigned to the U.S. Attorney's Office 
versus remaining with the District's Office of the Corporation 
Counsel?
    Mr. Boyd. Again, I think it probably was a question of 
cost. At the time, if you recall, Mr. Chairman, the District, 
the Federal Government became responsible for a number of court 
operations and criminal justice activities, it was shifted to 
the Federal Government I think to the tune of approximately 
$200 million or so. So I think it really was a recognition of 
probably some kind of savings that could be achieved.
    Mr. Davis of Illinois. If you were trying to strengthen 
H.R. 1296, can you think of any way that you would seek to do 
that?
    Mr. Boyd. I would go back to the first answer I posed, and 
I think it is a question of transition, whether or not there 
should be some clear statement in the legislation that clearly 
defines how the U.S. Attorney's Office would cooperate with the 
newly created District Attorney. Of course, there is a question 
of money, whether or not Congress would, as it has done with 
other activities of criminal justice that it supports for the 
District of Columbia, whether or not it would provide some 
funds for the transition.
    Mr. Davis of Illinois. Thank you.
    Mr. Spagnoletti, staffing and cost considerations have been 
highlighted as probably the greatest barrier to implementing 
H.R. 1296. How would you recommend dealing with the staffing 
and financing?
    Mr. Spagnoletti. It would be a complicated issue, Mr. 
Chairman. There are more than 300 attorneys at the U.S. 
Attorney's Office right now. I would venture to say that about 
200 of them, plus or minus, handle local affairs, either at the 
trial level or at the appellate level, and then probably 
another several dozen who provide support services to those 
lawyers.
    So really, not quite two-thirds of the office are handling 
local matters, if you will. That is a substantial number of 
bodies that would need to be brought over to the District of 
Columbia, if you were going to take them over wholesale. There 
are certainly ways to do it in a more strategic way, if you 
will. For example, the Office of the Attorney General already 
handles a fair number of misdemeanor cases. Indeed, they handle 
about 10,000 misdemeanor cases every year on their level, 
combined traffic and what we call D.C. offenses.
    The U.S. Attorney's Office could bring over the 
misdemeanors first, then bring over the felonies later, you 
would have a grand jury issue to be concerned about as well, 
because the local grand jury sits in the U.S. Attorney's 
Office. So there are some logistical issues that would need to 
be thought through, both in terms of whether or not these folks 
are simply going to come over, whether you would create new 
positions on the District side to have them filled. I think it 
would be, as Mr. Boyd points out, I think that would be the 
logistical difficulty in doing it.
    Mr. Davis of Illinois. I come from a town where people are 
pretty straight up in terms of expressions. There is one 
expression that people have that says, you have to pay the cost 
to be the boss. How do you think your fellow citizens in the 
District would feel about some cost increase relative to 
financing the Office?
    Mr. Spagnoletti. Again, I will speak on behalf of myself as 
a citizen of the District of Columbia. I think you are right, 
you do have to ``pay'' in order to be the boss. It is a 
worthwhile venture to give the District of Columbia control 
over its local prosecutions to make this happen. And indeed, 
without knowing sort of the full picture of what Congress might 
decide to do at the end of the day with this, there may be some 
ways to reduce the overall combined costs, if you will, by 
using some of the existing resources and requiring the U.S. 
Attorney's Office to share some of the existing infrastructure 
with the Office of the Attorney General, if that is the 
direction that Congress were to go with this.
    I would also point out that there are other parts of the 
system that remain federally funded even if this bill were to 
move forward: public defenders service, court services and 
defender supervision agency that provides pre-trial and 
probation services to local offenders. Those are all currently 
funded by the Federal Government. I would create an interesting 
dynamic to have a locally funded and independently elected 
prosecutor and have these other parts continually federally 
funded.
    I would also point out that currently, felons on local 
offenses are sent into, as I am sure the chairman knows, the 
Federal Bureau of Prisons. You would have a locally elected 
prosecutor making prosecution decisions that will impact 
Federal prison resources at the end of the day. The financial 
implications of this stretch beyond the personnel costs of 
moving over those 200 prosecutors to the rest of the system.
    But speaking on behalf of myself as a citizen of the 
District of Columbia, at least for this piece of it, I think it 
is a worthwhile investment of local resources to have local 
priorities govern prosecution of local offenses.
    Mr. Davis of Illinois. I thank the gentlemen very much.
    Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    Where I come from, the District Attorney would be the 
county attorney in Texas, and would bring prosecution on all 
criminal offenses in the county for each city. So the cities 
only have municipal judges and local prosecutors.
    So it is not exactly a model that I am familiar with, where 
the city itself would have the Attorney General, or the 
prosecuting attorney. Then we have the other overlapping 
jurisdiction of the U.S. Attorney. Is that how you would 
envision this to work on the ground in D.C.? Would D.C. 
basically be like a county, like functions in Virginia?
    Mr. Spagnoletti. The District, of course, is unique. The 
Attorney General's Office for the District functions as what 
would be the equivalent in the States as a city attorney, the 
county attorney and the State Attorney General rolled into one. 
It handles all the civil cases, it has child support, child 
protection, it handles domestic violence and all the 
transactional work.
    But the New York Corporation Counsel, what that office does 
is already done by the D.C. Attorney General's Office. The 
Attorney General for the District is a member of the National 
Association of Attorneys General because it really does have 
State-like responsibilities in its job function every day. But 
because we don't have any subdivisions, they all roll up into 
the Attorney General, including the General Counsel for all the 
agencies that are subordinate to the Mayor. The Attorney 
General has supervisory authority over them as well.
    So it really, I would actually suggest that you take a look 
at Delaware, Rhode Island and Alaska. Delaware and Rhode Island 
in particular, where the State Attorney General has the typical 
AG functions but also serves as the State prosecutor. Because 
that is where we are most comparable, both in terms of size and 
population as well. That is what their scope of responsibility 
happens to be.
    Mr. Marchant. Yes, and in Texas, the State Attorney General 
has no criminal prosecution at all.
    Mr. Spagnoletti. I think most of the State AGs do not have 
direct criminal prosecution for local offenses. They can either 
request it, they can be asked to step in. Some States share 
that responsibility but don't use it. Utah, for example, they 
share the responsibility with local prosecutors. They only step 
in when they think the local prosecutor is not doing what needs 
to be done in that case.
    But they also have all the appellate authority for the 
State, and they will conduct, on the appeal side for criminal 
cases, on behalf of the entire State and all the local 
jurisdictions to ensure the State is speaking with one voice on 
important legal issues relating to criminal law. So again, I 
think that the District, unique in many respects, you just have 
to roll up the city attorneys and the county attorneys and the 
State AG into one office, which is why, of course, I recommend 
using the name in the bill as the Attorney General rather than 
District Attorney. Because the DA suggests criminal, Attorney 
General suggests the wide range of responsibilities.
    Mr. Marchant. But per your testimony, even if you 
accomplish that, you would still have a Federal AG that would 
prosecute Federal crimes?
    Mr. Spagnoletti. Absolutely.
    Mr. Marchant. Just like in a State.
    Mr. Spagnoletti. Absolutely.
    Mr. Marchant. But unlike a State, all of the support 
agencies that are usually funded by a State or a city or a 
county are funded by the Federal Government here.
    Mr. Spagnoletti. It is a mix. The Metropolitan Police 
Department generates most of the cases that come in to the U.S. 
Attorney's Office and certainly to the Attorney General's 
Office. That is locally funded. But more than most other 
jurisdictions, we have Federal law enforcement agencies in the 
District, many of them, that have local arrest powers. So we do 
have the Park Police, the Capitol Police, all of them making 
arrests under local offenses.
    I think actually more significant than the arrest powers 
are actually the investigation side of things. Although MPD 
does most of the investigations, from the most serious crimes, 
the District is still relying substantially on the FBI, ATF, 
DEA for its backup work. They are working on changing that by 
having a local lab and doing those things. But those are parts 
of the puzzle that need to be considered when these things get 
done.
    Mr. Marchant. So talk about the Park Service. We have had 
some very high profile Park Service investigations and arrests. 
Under this proposed legislation, would they continue to be in 
the Park Service? Would those authorities continue to be vested 
in there, or would they transfer over to the city Attorney 
General?
    Mr. Spagnoletti. What would happen is, the Park Police 
makes the arrest under an agreement that the Park Police has 
with the District of Columbia, allowing it to enforce its local 
laws, if you will. So if they are on park land, they need to 
make an arrest, they bring it in. Because the charges go two 
different ways, if it is an indecent exposure case, for 
example, that is an AG offense so they go to the local Attorney 
General's office. Park Police comes in to do what we call paper 
the case.
    But if it is a possession of marijuana case, it goes to the 
U.S. Attorney's Office. It is just a matter of which way they 
walked. Did they walk to 555 Fourth Street or 441 Fourth 
Street? Just two different sides of the street over there. That 
would be the difference.
    I actually would suggest to you that the bill puts the 
District on the same footing as other jurisdictions when it 
comes to the decision about local versus Federal prosecutions. 
Right now, when a case walks in the door at the U.S. Attorney's 
Office, there is not necessarily any kind of a discussion that 
goes on between the local authorities and the Federal 
authorities about whether this case is better placed in the 
Federal courthouse or in the Superior courthouse. Because the 
U.S. Attorney has the complete authority to make the decision 
about which direction that case goes.
    But in every other State in the country, the local 
prosecutor and the U.S. Attorney have to have a discussion 
about what makes the most sense. They have to cooperate that 
way. And although I will say that in recent years, the U.S. 
Attorneys who have held the position have really made efforts 
to reach out to the local population, the Attorney General's 
Office and the council, it does allow them to basically keep 
the matters entirely within their own office without 
necessarily sharing information.
    I have to say that I have had experiences as the Attorney 
General where I needed to do something on the local level, but 
the U.S. Attorney's Office had the information in their hands 
and they didn't share it with me. Because they thought it was 
more important to do whatever they were going to do on the 
Federal side than it was for us to do on the local side. There 
was no conversation, because they have the entire ball of wax, 
if you will, in their hands.
    So while I say generally the communication is good, but by 
placing all the local and all of the Federal matters into the 
U.S. Attorney's hands, there is no discussion, because the U.S. 
Attorney makes those decisions.
    Mr. Marchant. And there is no ability on the part of the 
U.S. Attorney's Office to give that authority to the city, does 
it have the authority to cede that power to the city now?
    Mr. Spagnoletti. In some small circumstances where there 
are some technical things in the Code, but yes, there are some 
circumstances where we have cross-designated assistant U.S. 
Attorneys as Attorneys General to try to minimize the problem I 
discussed in my testimony. For example, someone gets arrested 
in the act of prostitution, and there is an indecent exposure 
and a prostitution charge. Indecent exposure is an AG charge, 
prostitution is a U.S. Attorney's Office charge. For years and 
years, it would be two separate cases, two separate jackets, 
two separate judges marching those cases there.
    When Ken Weinstein was the U.S. Attorney and I was the 
Attorney General, we entered into a written agreement that on 
certain low level offenses we would bring those into one court 
or the other and allow the respective assistants to prosecute 
those matters, to try to minimize what was going on with the 
duplication of cases and reduce the number. But that exists 
only at the lowest level because of what the power of the AG 
has right now in terms of its criminal authority.
    Mr. Marchant. Do either of you consider yourselves to be 
Constitutional lawyers?
    Mr. Boyd. I am certainly not. [Laughter.]
    Mr. Marchant. Mr. Chairman, if there is another hearing on 
this, I would request that we have a Constitutional lawyer to 
get some perspective on the Constitution as it is written and 
the opinion of the effects it would have on the Constitutional 
intent of this Federal zone, this Federal State and what a 
change like this may or may not have as far as 
Constitutionally. Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant. 
We will make sure that happens.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I hope that 
you will make available, if you have not, the CRS report on 
this matter, which did not raise Constitutional questions. I 
can understand the ranking member's interest in that. The fact 
is, the only reason the District has a U.S. Attorney is that in 
essence, there was no local jurisdiction here. There was nobody 
else to prosecute crimes for 150 years. We were denied Home 
Rule. Thus, somebody had to do it. You have the U.S. Attorney 
doing it.
    It has not been suggested that we couldn't do for the U.S. 
Attorney the same thing we do, for the U.S. Attorney, creating 
a DA, Attorney General, whatever you want to call it, the same 
way we have done for the Mayor. There wasn't any Mayor, either. 
There wasn't any City Council either. We passed the Home Rule 
Act, Federal jurisdiction. We have delegated the executive 
authority to the Mayor, legislative authority through the 
Council, and we can delegate the Authority to prosecute local 
crimes, in my judgment. And I do speak from some background as 
a Constitutional lawyer. I believe we could delegate that 
authority from the U.S. Attorney to an elected person.
    Both of you, you, Mr. Boyd, you, Mr. Spagnoletti, raise the 
notion of this nomenclature, which I think could be quite 
confusing, and I would hate the bill to get all messed up with 
nomenclature. The fact is, Mr. Spagnoletti, you were a classic 
Attorney General before. That is to say, normally U.S. 
Attorneys, the Attorney General does not have major criminal 
jurisdiction. So you converted the name which, as a native 
Washingtonian, I can tell you has always been Corporation 
Counsel, and also is a word used in some jurisdictions, you at 
least were using a term which was conversant with the duties of 
the office.
    And Mr. Boyd raises in his testimony the notion that we do 
not call for the abolition of the role of the Attorney General 
of the District of Columbia. We don't in this bill, because we 
are writing a Home Rule bill. If the District wants to do that, 
that is for it to do.
    But Mr. Spagnoletti implies that because Delaware does in 
fact apparently, probably to save time and money, it puts both 
functions in the same place, implies that you really could have 
them both in the same place. I want to ask you, Mr. 
Spagnoletti, I want to ask you whether or not, given the nature 
of criminal prosecutions here, in a big city, whether that for 
you is an important point, to have an office that covers civil 
and criminal matters in the same office, and if so, for what 
reason?
    Mr. Spagnoletti. As I read the bill, because it takes the 
D.C. Code and changes the name, if you will, of the current 
Attorney General, actually I think it still reads Corporation 
Counsel in the bill, but the Attorney General, and sort of 
rolls them into one, my reading of the bill actually has 
virtually all the powers of the current Attorney General being 
merged there. So I thought actually it was more the intent of 
the bill to have those things all together.
    But certainly, I can see a model where you simply take the 
criminal prosecution from the Attorney General's Office, the 
criminal prosecution from the U.S. Attorney's Office and roll 
that together into an elected DA and severing the rest of it 
out to an Attorney General for the District.
    Ms. Norton. You are right, the Counsel would have to make 
that decision. The one issue that would bother me about that is 
the issue of the independence of the DA. This is somebody who 
ought to be able to prosecute a mayor or city council members. 
This is somebody who the Mayor should have no control over, 
that is why the people of the District of Columbia wants them 
elected. I don't want to suggest we want them to prosecute our 
public officials, but the independence for the, this is the 
only official that would be as independent as members of the 
Council, as independent as the Mayor. It is not just because we 
want another elected official.
    The reason I raise this is when you imply, and we would 
have to look at what the Delaware experience was, is that it 
has been a matter of some concern in the District now that 
there is confusion as to whether or not, and I can understand 
the confusion, I think it is structural confusion, even within 
an office that doesn't even have major criminal jurisdiction as 
to whether or not the Attorney General is essentially an 
independent officer or whether or not he is like every other 
appointee of the Mayor.
    This confusion I think is harmful. But it is harmful 
because of the structure that Congress has set up, giving the 
Attorney General certain roles, I am sorry, given where, and 
this was initially set up by the Congress, but where the 
Council seems to be contemplating trying to clarify just how 
independent even the Attorney General is. Well, the controversy 
has arisen about independence within an agency that everybody 
knows, and nobody has suggested, at least yet, should be 
elected, should be appointed.
    Then I raise this only out of this discussion, wonder 
whether or not we would be defeating the independence of this 
official by mixing with the criminal prosecutions, that is 
responsible for criminal prosecutions, his responsibility for 
some matters where he must be directed by the Mayor and then by 
the City Council.
    Mr. Spagnoletti. To roll together everything would be a 
challenge, to say the least, for the Attorney General to keep 
going. But it is not unusual, and it is not unusual for----
    Ms. Norton. How is independence preserved? What kind of 
wall preserves the independence of the Attorney General? Is he 
elected?
    Mr. Spagnoletti. It is the election, yes. I guess what I 
contemplated in reading your bill is that it would be the 
elected Attorney General, have all those authorities that ran 
to the former Attorney General as well as the prosecution 
authority, the local prosecution authority from the U.S. 
Attorney.
    Ms. Norton. I am speaking functionally, Mr. Spagnoletti. 
Yes, you give him the authority, functionally, he is 
responsible to the executive for executive functions. He is 
responsible to no man for criminal prosecutions. So I am just 
suggesting without knowing, because I think this matter would 
be left, obviously, to the Counsel, that the notion that it all 
hangs together and if he is elected it will work out all right, 
even though his responsibilities to the executive are clear, is 
something I think would need investigation.
    Mr. Spagnoletti. I guess I would say two things. One is 
that the challenge that you point out is one that is 
experienced by every State Attorney General across the county.
    Ms. Norton. Yes, I need to know what it is.
    Mr. Spagnoletti. For every matter, the question is always, 
who is the client. The person himself as the Attorney General 
is protected by the election process. So at least in terms of 
your job not being on the line when you make a decision, the 
election, at least, the election process takes care of that.
    But then for every matter, and this is true of every 
attorney general, for every matter, who the client is changes 
where your line of responsibility, like every lawyer, happens. 
In a criminal case, you are beholden to the people as a whole, 
and you can't be directed or influenced by other members of the 
executive, legislative or judicial branch in how you do those 
functions.
    But in civil matters, you do take your direction, and it is 
true of every Attorney General----
    Ms. Norton. Mr. Spagnoletti, I don't want to press this, 
although the lawyer in me wants to. I mean, we have child abuse 
matters, you have matters that move that, the line, and it was 
so clearly drawn, there would be a whole lot less litigation in 
this country. And I think the, and I raise it only because it 
is an interesting legal question and because as Mr. Boyd 
raised, you still have the Attorney General, and I responded to 
him the reason is that for the District to decide.
    But I just want to leave a notion that I think wrapping it 
up is something that raises issues that they would have to sort 
out. That is the only reason I am pressing it, not to want to 
solve it.
    But I do want to ask you about your dual experience. It 
seems to me to be invaluable to us. Because you were 
responsible for just the kind of cases that I think could cause 
confusion in an office that has the Attorney General and the DA 
in the same office, because you were responsible for all 
criminal cases in the U.S. Attorney's Office as its chief of 
the Sex Offense and Domestic Violence Section for prosecuting 
criminal cases involving sexual abuse of adults and children 
and intra-family offenses, etc.
    Now, did your experience lead you to believe that the cases 
that you prosecuted could have been easily, more easily, 
perhaps handled by an official who was elected by the people of 
the District of Columbia who had to live in the District of 
Columbia?
    Mr. Spagnoletti. I certainly think that could have been 
handled just as easily, yes.
    Ms. Norton. Was there any advantage to prosecuting sexual 
abuse cases involving children and families in a U.S. 
Attorney's Office?
    Mr. Spagnoletti. But for the resources that were available 
to us, I think that was really the only difference.
    Ms. Norton. The notion--do you have any experience in 
bringing families to the U.S. Attorney for such prosecutions, 
families which may still be together but where you are 
prosecuting people for sexual abuse and the like? Here it has 
become what looks like a Federal offense and you are dealing 
with the Feds. Must have been a serious crime or it wouldn't 
have been prosecuted by you. But I am wondering whether or not 
that even facilitates criminal prosecution at the Federal 
level, even facilitates what we all hope for when even serious 
family matters develop.
    Mr. Spagnoletti. I guess I would say two things. One is, it 
does require, every time someone walks into the office, an 
explanation of why they are coming to the U.S. Attorney's 
Office and the fact that it is not----
    Ms. Norton. Did you have any social workers to deal with 
such families in your office?
    Mr. Spagnoletti. In the U.S. Attorney's Office?
    Ms. Norton. Yes.
    Mr. Spagnoletti. There were victim witness advocates that--
--
    Ms. Norton. Volunteers?
    Mr. Spagnoletti. No, actually employees. We started the 
program in 1996.
    Ms. Norton. Excellent.
    Mr. Spagnoletti. So there were victim witness advocates who 
worked with those families. But again, they were Federal 
employees, so it required another step to hook them up with 
local services and local processes along the way.
    I would also mention that, I don't want anything to think 
that, when cases come in under the Sex Offense and Domestic 
Violence side, which is in the Superior Court division in the 
U.S. Attorney's Office, it was extremely rare, very, very rare, 
that those cases ever made it over to the Federal side. There 
was a division in the office that, I mean, I have not been 
there in a few years, but there was a fairly significant 
division between the Superior Court side and what they called 
the criminal division. So it is not as though the cases are, 
once they track, they tend to track one direction or the other. 
And sex offense, domestic violence, child maltreatment cases 
almost always tracked down Superior Court side.
    Ms. Norton. Of course, it must have been very serious 
offenses for you to have had jurisdiction at all.
    Let's go back to the testimony of Mr. Boyd. You mentioned a 
figure over $50 million for the cost. What was that figure?
    Mr. Boyd. It was $57 million, that was an estimate by the 
CFO in 2003. I know that some have challenged that estimate.
    Ms. Norton. Well, I don't challenge it. I don't challenge 
it, because I think one has to look straight in the face of the 
costs and I will say that when the Council went to do its bill, 
I questioned them about whether or not, before I put my bill 
through, they understood that this was a transfer of costs to 
the District of Columbia, that the District of Columbia had 
never borne. I was told by those who know best in the Council 
they were prepared for that cost.
    In your judgment, Mr. Spagnoletti, I would have to ask you 
about that. Your office, the Attorney General's Office, has 
often, this is not, I speak not unto you, Mr. Spagnoletti, but 
for years been seen as an office that was not splendidly 
funded. In fact, an office that has had some difficulty with 
the courts. Do you believe that the, in your judgment having 
been an Attorney General, that the city would in fact take on 
the cost, no matter what it was, for the new person, Attorney 
General or DA, and all that goes with that person and that 
office?
    Mr. Spagnoletti. I would assume that would be the case, 
given the combination of referendum and action by the Council. 
I think you are correct in your analysis of where the Office of 
Corporation Counsel was. I would say that within the past, 
maybe this is a little self-serving, I realize, but I do think 
it has made significant headway moving forward in terms of its 
technology and the support that it has to do its job. I think 
the court has recognized that certainly in recent years.
    So I think a measured transfer, and again, I am assuming 
the District has bought into this, that is, the elected 
officials have bought into this who are going to control and 
make budgetary decisions, since they have----
    Ms. Norton. Do you think the city is capable of handling 
this $57 million or as it goes up cost?
    Mr. Spagnoletti. I would assume so, yes.
    Ms. Norton. We have a budget here, what, $3 billion 
locally? I don't know if that $6 million will count everything.
    Mr. Boyd. Ms. Norton, if I could interrupt for a minute, we 
did look at a couple of cities of comparable size to the 
District or counties. Baltimore, for instance, it is State's 
Attorneys Office, budgeted about $31 million.
    Ms. Norton. That is the office of the local DA?
    Mr. Boyd. Right, that is the local DA. The King County 
Prosecuting Attorney's Office, that is where the city of 
Seattle is located, had a budget of about $53 million.
    Ms. Norton. Well, this office is, although if you talk to 
the U.S. Attorney, particularly in the last few years, their 
own funding has suffered markedly. Nevertheless, the U.S. 
Attorney's Offices, I should say, are known for splendid hires, 
and so much so they go on to be, as Mr. Spagnoletti progressed, 
if you could considered that, or to be judges themselves. They 
are of very high quality. There recently has been a huge outcry 
about the Attorney General scandal here, because they were 
considered always although appointed by the President, they 
were considered, and frankly, it had a long record of being 
apolitical, going where they have to go.
    You say, Mr. Spagnoletti, there are more than 300 lawyers, 
this is on page 6 of your testimony, in the U.S. Attorney's 
Office. This is really stunning. Everybody should listen to 
this, 200 of them prosecute local criminal matters. The people 
of the United States are essentially paying for the local DA or 
Attorney General.
    Do you believe, having been in both offices, Mr. 
Spagnoletti, that the U.S. Attorney left only with Federal 
jurisdiction would have ample authority to have a U.S. Attorney 
for the District of Columbia here and move forward?
    Mr. Spagnoletti. Absolutely. There are plenty of cases, in 
fact, I would say that one of the reasons the number on the 
Superior Court side is so high is that cases that would 
otherwise be brought federally are being directed locally for 
operational form, shopping, if you will, types of reasons. It 
in no way suggests that there is a lack of cases, a lack of 
work or a lack of authority. In fact, quite the opposite. I 
think there is plenty of work that needs to be done on the 
Federal side by the U.S. Attorney side from what would normally 
be local offenses.
    Ms. Norton. For the record, I would like to clarify this 
notion. It is true that you have two sets of, you have more 
Federal police here than elsewhere, this is Federal 
jurisdiction. And you have the Park Police, I think alone, has 
city-wide jurisdiction along with the D.C., and you know what? 
This Member, who loves the Park Police, would strive to keep it 
that way. Because what they do is arrest people, some of our 
biggest drug busts over the years have come from Park Police. 
Why? Because much of their patrol is in and around parks. Many 
of those parks are in high crime neighborhoods, across the 
Anacostia, Anacostia Park, Fort Dupont. So they have been very 
helpful to us.
    The fact that the Park Police, or for that matter the 
Capitol Police, can make some arrests, why is that any 
different from what the Park Police would do in Wyoming or what 
Federal police do elsewhere? If they make an arrest and, if 
they are making an arrest under delegated jurisdiction as the 
Park Police is, does, then of course it seems to me there is a 
long history of how to do that. But suppose you have other 
Federal police who make an arrest. Let us say in other 
jurisdictions, which have normal relationships with Federal 
agencies, let me ask a question, how would those Federal 
officials from those agencies deal with the local DA or the 
local authorities?
    Mr. Spagnoletti. As I mentioned before, I would expect that 
the agreements would all continue for enforcement of local 
laws. There would be the same types of arrests that there are 
now.
    What could happen, I suppose, is that intervening step if 
the local prosecution authority was all moved over to a DA or 
an attorney general, where if there was an arrest on park land, 
they might very well run it past the U.S. Attorney to see if 
they wanted to do it locally, much in the same way the Eastern 
District of Virginia does, before they send it off to the local 
officials.
    But again, I would expect that with cooperation all that 
would be worked out in advance, so that folks would know, if 
you pick up a marijuana misdemeanor case in Rock Creek Park, 
they are going to take it there as opposed to here on the mall 
here as opposed to there.
    Ms. Norton. What you are saying is important, I am really 
trying to discern whether there would be any difference here 
than what occurs generally throughout the United States when 
there is mixed jurisdiction or when, for example, a rape occurs 
in a park where the rape is, you have to decide who is going to 
prosecute it, local, or whether you are going to bring it 
through the U.S. Attorney.
    Mr. Spagnoletti. Well, actually, I think it is the same as 
other States, and actually a little bit easier in the District 
for that kind of coordination. Because we only have one court 
of general jurisdiction, and you don't have Federal authorities 
having to go to different counties and district courts and 
circuit courts and the rest.
    Ms. Norton. You raise some operational challenges. I 
appreciate your raising them in your testimony. But I wonder if 
they also don't track what happens in local jurisdictions. The 
Federal agency, the mention that the Attorney General's Office 
relies on the FBI, ATF and DEA. Now, because he is a Federal 
official, he probably has far greater access, more inclined to 
go to the FBI. If you go to Prince George's County, they will 
tell you the FBI was deeply involved in police matters there 
and in helping the State's Attorney there with respect to some 
police abuse matters that occurred there. Doesn't every 
jurisdiction cooperate with the ATF and the DEA without even if 
the matter is a local matter?
    Mr. Spagnoletti. Yes. However, the one difference in the 
District is that we rely on some of those agencies for very 
routine cases as well. Whereas other States have local labs 
that will do it, for example, the DEA doing all of the chemical 
analysis on our drug cases.
    Ms. Norton. That is because we don't have a lab.
    Mr. Spagnoletti. That is right. I just point out, that is 
really the issue, is that it has allowed the District to move 
slowly on developing a lab, because it has relied so heavily on 
the FBI, DEA and ATF for very routine kinds of analyses that 
are done by States or local jurisdictions in other places. But 
I think you are correct, there is no difference in bigger 
matters where you would expect that kind of cooperation from 
the FBI, ATF and DEA.
    Ms. Norton. I would also like to have your view on the 
notion that some of our functions might remain Federal 
functions, at least for cost purposes: public defender, 
appointed judges, our prisoners who are in the Bureau of 
Prisons. These people work under the D.C. Code. Has that caused 
any confusion that the public defender is funded--that is what 
it is--funded by the Federal Government, that the judges are 
funded, and for that matter appointed by the President of the 
United States, or that our prisoners are in Federal prisons? 
Has that caused any confusion between local and Federal 
jurisdiction?
    Mr. Spagnoletti. Operationally, no.
    Ms. Norton. I just want to make sure that we understand 
these problems, so that we can know about them in advance. So 
they won't be raised as reasons to oppose the bill.
    Most, if I may say so, most of what we get in excess of 
what you might expect from Federal agencies comes because of 
location and because they have a Federal U.S. Attorney and so 
you get some little increment of resources. That is what D.C. 
would have to give up and be willing to give up. Now, it would 
still have the same access that any State has to the FBI, the 
ATF, the DEA and the rest of it.
    But you mention with the best example, and by the way, that 
would remain, the best example is of course the lab, the 
forensic lab. And we are building a new forensic lab. But until 
we have built one there is no doubt in my mind that if there 
was a local DA or Attorney General, that the Federal Government 
would continue the present arrangement. After all, we worked 
out an arrangement with them that respects the local 
jurisdiction.
    Let me ask you, finally, Mr. Spagnoletti, about the 
jurisdiction of the U.S. Attorney's Office with the ability to 
charge some 16 and 17 year olds as adults. You mentioned this 
in your testimony. How are children incarcerated if these 
children are charged as adults, essentially by the U.S. 
Attorney and not by, not elsewhere?
    Mr. Spagnoletti. They are incarcerated in the adult system. 
So they would be placed in whatever facility, but of course, 
probably segregated as appropriate, given their age or 
vulnerabilities. But once they are prosecuted by the U.S. 
Attorney's Office, they go that direction.
    Ms. Norton. Once they are charged, while they are awaiting 
trial, what happens to these children?
    Mr. Spagnoletti. They are held as adults. Again, maybe 
segregated along the way.
    Ms. Norton. Where would be held? Would they be sent to OPO?
    Mr. Spagnoletti. No.
    Ms. Norton. When you are charged with a Federal crime, it 
is pretty serious, you did something as a 16 or 17 year old 
that meant you are not in juvenile court, or Superior Court.
    Mr. Spagnoletti. Right. As I understand it, they would be 
held, for example, pending trial, in D.C. jail but away from 
either the sentenced folks or I guess the more serious 
offenders. But that is where they would be. They would not be 
mixed in with the juveniles, because they wouldn't be 
considered juveniles.
    Ms. Norton. Well, I suppose that is no different than if we 
had a DA, they would have to be held somewhere.
    Mr. Spagnoletti. That is correct.
    Ms. Norton. Finally, do you have anything to say, Mr. 
Spagnoletti, about the quality of the U.S. Attorney's Office 
and whether we would get that same quality of attorney if we in 
fact had a local DA?
    Mr. Spagnoletti. I appreciate your asking that question, 
because I do want to put on the record that everything I have 
said about my support for the locally elected DA is not meant 
to demean or suggest in any way that the U.S. Attorney's Office 
is not doing a fine job with local offenses. Because I really 
believe that they are. Having seen local prosecution across the 
country in lots of different courthouses, I actually think they 
are among the best in the country in terms of handling local 
prosecution.
    That being said, I have no reason to doubt that with an 
orderly transition and properly funded, that same level of work 
couldn't be done by a local DA or Attorney General, whatever it 
turns out to be. I had the pleasure of interviewing and hiring 
tons of folks at the Attorney General's Office who wanted to 
come to the District and work at the local AG's office on the 
smaller matters, juvenile delinquency cases and folks who I 
think could have done and will do just as fine a job as folks 
we might hire from the U.S. Attorney's Office.
    I would be remiss if I didn't put on the record that at 
least one of the issues that is at play here is that the U.S. 
Attorney for the District of Columbia has enjoyed a feeder 
system through the local offenses, and that is that people come 
to that office oftentimes because they want to be in the U.S. 
Attorney's Office, but they want to do trial work.
    You don't get a lot of trial work on the Federal side, you 
get a lot of trial work on the Superior Court side. It is a 
rotation system and you go there and they put you in appellate 
for a little while and then they put you in misdemeanors for a 
while, then felones and grand jury and they move you on. So 
that by the time you get to the criminal section, the Federal 
District Court side, you have a number of years and experience 
under your belt, different than any other U.S. Attorney's 
Office in the country, where they hire you and you immediately 
start working on Federal offenses.
    So that is part of what exists in our system. I am not 
saying that is a good or a bad thing. I am just saying that he 
has enjoyed, he the U.S. Attorney or she the U.S. Attorney, has 
enjoyed that feeder system. But basically, in my opinion, using 
local offenses as training grounds for what the U.S. Attorney 
was meant to do, which is prosecute Federal crime.
    So moving those functions to a local D.A. or a local U.S. 
Attorney makes them the prime job. It makes that as the be all 
and end all, to do that and to hire people who didn't come to 
do something else, but to prosecute local offenses, career 
folks who want to do homicides and sex offenses and family 
violence and quality of life crimes. So you may get a different 
dynamic, but I am confident, equally capable folks who want to 
be there, who can do qualify work for the District of Columbia.
    Ms. Norton. Thank you very much. I thank both of you, 
because I think it has edified the record. And thank you, Mr. 
Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    Let me just ask you, Mr. Boyd, in conducting your research, 
did you uncover any degree of interaction among the different 
relevant agencies of Federal or local government? In other 
words, the interaction between and cooperation of the U.S. 
Attorney's Office, District of Columbia, District Office of the 
Attorney General, other local D.C. entities?
    Mr. Boyd. I am sorry, Mr. Chairman, I didn't quite 
understand the question.
    Mr. Davis of Illinois. The interaction between the 
different levels of government, local and Federal, the spirit 
of cooperation that may exist between D.C. officials and 
Federal officials.
    Mr. Boyd. We really didn't look closely at that, but I am 
aware that there is a criminal justice coordinating committee 
where all these officials are members, the U.S. Attorney serves 
as a member of that commission as well as the Mayor, the 
Attorney General. So there is that kind of cooperation, at 
least there is that vehicle. But we didn't quite look closely 
at that. We will be happy to look into it.
    Mr. Davis of Illinois. Thank you.
    Mr. Marchant, do you have any additional questions?
    Mr. Marchant. No, thank you, Mr. Chairman.
    Mr. Davis of Illinois. Gentlemen, thank you very much. We 
appreciate your being with us and this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
